<html>
<title> - MARKUP ON H.R. 3295, THE HELP AMERICA VOTE ACT OF 2001</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



        MARK UP OF H.R. 3295, THE HELP AMERICA VOTE ACT OF 2001

=======================================================================

                                MARK UP

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, NOVEMBER 15, 2001

                               __________

      Printed for the Use of the Committee on House Administration



89-916              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland,
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York

                           Professional Staff

                       Neil Volz, Staff Director
                   Bob Bean, Minority Staff Director

                                  (ii)

 
         MARKUP ON H.R. 3295, THE HELP AMERICA VOTE ACT OF 2001

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2001

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:10 a.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Linder, Doolittle, 
Reynolds, Hoyer, Fattah and Davis.
    Staff Present: Jeff Janas, Professional Staff Member; Paul 
Vinovich, Counsel; Chet Kalis, Professional Staff Member; Roman 
Buhler, Counsel; Sara Salupo, Staff Assistant; Bob Bean, 
Minority Staff Director; Keith Abouchar, Minority Professional 
Staff Member; and Matt Pinkus, Minority Professional Staff 
Member.
    The Chairman. The committee is now in order for the purpose 
of consideration of H.R. 3295, the Help America Vote Act of 
2001. I just wanted to make a statement that today's markup is 
the culmination of a long series of hearings, discussions and 
negotiations. In crafting this bipartisan election reform bill, 
we heard from and consulted with groups from across the country 
that represent the interests of voters, elections officials, 
State and local governments and others who care about this 
issue. From the outset of this process, our goal has been to 
craft legislation that could be supported by Members from both 
sides of the aisle, and with the introduction of the bill, I 
think it is very evident if you look at the sponsor and 
cosponsor list that they are from both sides of the aisle and 
from different political spectrums within both parties.
    Improving our country's election system should not be a 
partisan issue. Republicans and democrats nationwide and here 
in this Congress agree on the necessity of ensuring that all 
citizens who wish to vote can and that their votes are counted 
accurately. I believe this bill will advance us towards the 
goal.
    Members have been provided with a copy of the bill, but 
before we begin, I would like to just quickly go through some 
parts. The first title of the bill, title I, is the punch card 
replacement program, the hanging chads and all those issues. 
This title authorizes $400 million to allow those jurisdictions 
that used punch card voting systems in the November 2000 
election to get rid of them. It is obvious that we need to get 
rid of these antiquated technologies and replace them with 
machines that voters can have confidence in, and this title 
authorizes funds to make that happen.
    I will make it clear. Some jurisdictions have said they may 
not do this, and that is fine. We are not telling them they 
have to do it, but if a future election has a tie and they have 
a hanging chad, don't call me to try to see how that works out 
for them. But, again, if they want to replace them, we will be 
there. If they don't want to, that is going to be their option.
    Second title, title II, creates the new Election Assistance 
Commission. The new Commission will assume the functions of the 
Office of Election Administration, currently under the Federal 
Election Commission. The new EAC will serve as a national 
clearinghouse for the compiling of information and review of 
procedures affecting administration of Federal elections. The 
EAC will also be charged with developing new voluntary election 
management practice standards. It will distribute the election 
fund payments, research and development grants and pilot 
programs authorized by this bill.
    I will point out that the name that we did choose, by the 
way, for this Commission is not an accident. The purpose of 
this Commission is to assist State and local governments with 
their election administration problems, basically taking the 
attitude we are the government, we are here to help. Its 
purpose is not to dictate solutions or hand down bureaucratic 
mandates. The Commission has no rulemaking authority. Its 
commissioners serve part-time. Of the four commissioners, no 
more than two can be of the same party, so we guarantee 
bipartisanship.
    Additionally, it must consult with and consider the 
recommendations of the Advisory Board and the Standards Board 
established by this bill. These boards will consist of election 
officials from around the country as well as other interested 
groups with interest in or expertise in election issues. These 
boards will have a voice on this Commission and that voice will 
be heard.
    I just want to say something about this bill. It is, I 
think, embarking on a unique area. Those who were concerned 
about creating a Federal agency that in fact was going to 
promulgate rules without the vote of Congress don't have to 
have a fear after this Commission is constituted.
    The ranking member Mr. Hoyer came through with the Advisory 
Board idea, which was just a tremendous idea. It includes a lot 
of groups from around the country to have their voice heard. We 
had the standards part of it, which will be approximately 110 
people from across the country. They will reach consensus. It 
forces a working group together, and we have a Commission. So 
it, I think, is one of the more unique ideas that was given to 
us, and I want to thank Mr. Hoyer for coming up with the 
Advisory Board.
    The title also authorizes $2.25 billion for the election 
fund payments to the States. The election fund payments will be 
used for a variety of things, from purchasing new equipment to 
updating registration systems, to assuring access for those 
with physical disabilities to the polls, increasing poll worker 
education and training, sending sample ballots, et cetera. The 
fund is designated to allow a State to determine its greatest 
needs and devote the resources to those needs.
    Along with these funds come funding conditions. States that 
take payments must certify, for example, that they have 
provided one dollar to match every three dollars provided by 
the Federal Government, a 25 percent match.
    They have established a statewide benchmark for voting 
system performance. They have adopted the voluntary election 
standards developed by the new Election Assistance Commission 
or developed their own standards. They also have in each 
precinct or polling place a voting system in place which is 
fully accessible to people with disabilities. These funding 
conditions will ensure that the Federal dollars are spent 
appropriately and that the EAC will monitor compliance with 
these conditions.
    Titles III and IV of this bill help create the Help America 
Vote Program. This program is designed to get the country's 
young people involved in our democratic process through 
volunteer services, nonpartisan poll workers and assistance.
    Ranking member Mr. Hoyer proposed this idea. We have a 
college program and also a high school program. We all talk 
across the country and we all firmly believe we want young 
people involved in this process. Then let us get them to the 
polls, have them be poll workers, see how the process works, 
and it will give them, I think, a renewed spirit and energy to 
become future voters and to take that back to their schools to 
promote voting. I think this is a great program. The Help 
America Vote Program will be administered by the EAC. The high 
school program will be set up independently by Federal charter. 
Both programs will be administered in a nonpartisan manner.
    Titlte V is the minimum standards section of this bill. The 
minimum standards approach I believe is the spirit of this 
bill. Some people fear that having funding conditions wasn't 
adequate, because voters who maybe lived in States who did not 
take funds would not be protected. Others opposed intrusive 
Federal mandates that become burdensome and inefficient, and 
that was a huge argument debated across this country.
    The minimum standards we include in this bill strike the 
appropriate middle ground. They guarantee certain protections 
to all the voters of the country without imposing an intrusive 
Federally designed system.
    There are seven minimum standards. Number one, the State 
will implement a statewide registration system that is 
networked to every jurisdiction in the State.
    Two, the State has a system of file maintenance which 
ensures that the voting rolls are accurate and updated 
regularly.
    Three, the State permits in-precinct provisional voting by 
any voter who claims to be a qualified voter to vote.
    Four, the State has adopted uniform standards to define 
what constitutes a vote on the different types of voting 
equipment in use in the State.
    Five, the State has implemented safeguards to ensure that 
military service personnel and citizens living overseas have 
the opportunity to vote and have their vote counted.
    Six, the State requires that new voting systems provide a 
practical and effective means for voters with physical 
disabilities to cast a secret ballot.
    Number seven, States that have technology that allows 
voters to check for errors must ensure that they are able to do 
so under conditions which assure privacy, and States replacing 
all machines within their jurisdictions must do so with 
machines that give voters the opportunity to correct errors 
before the ballot is cast.
    The EAC, the Commission, will monitor compliance with these 
minimum standards and can make referrals to the Justice 
Department in cases of noncompliance. I think that gives a 
certainty of feeling that these will be standards that will 
work and will have some teeth.
    Title VI will help assure the voting rights of our service 
personnel and overseas citizens. It includes a number of 
provisions that will make it easier for our service personnel 
to obtain ballots and transmit them in a timely fashion. 
Additionally, we will require the Department of Defense to make 
sure there are an adequate number of voting assistance officers 
assigned and make sure the ballots are properly postmarked so 
they can't be challenged.
    Finally, Title VII, VIII, and IX would allow official 
election mail to be sent at one-half of the regular first class 
rate, transfer the FEC's Office of Election Administration to 
the new EAC created in this bill, protect the privacy rights of 
voters in jurisdictions that have second-chance voting, and 
clarify the National Voter Registration Act procedures for 
removal of ineligible registrants from the poll.
    In conclusion, just let me say that this bill is a 
culmination of a lot of hard work, and before I turn it over to 
the ranking member, I also want to take a moment to thank a lot 
of people who made this possible. Bob Bean and Keith Abouchar 
of the minority staff. I obviously want to recognize our 
majority staff that are also sitting here that participated. 
Chet Kalis, Roman Buhler, Paul Vinovich, Maria Robinson, Pat 
Leahy. Who am I missing? I am going to have to give them a pay 
raise to compensate for not saying their name here today.
    I also want to acknowledge Congressman Roy Blunt, who was 
very, very helpful. His administrative assistant, Floyd Gilzow, 
who was very helpful. And let me also just say that we met with 
the Speaker of the House, Mr. Hoyer and I did. We also met with 
Leader Gephardt. I was very encouraged by the attitude of both 
of the leaders, and let me just say before I turn it over to 
Mr. Hoyer that things don't happen in a vacuum. We have been 
able to get to this point. I want to publicly recognize the 
work of Steny Hoyer and also the work of the members of this 
committee. We debated issues for quite a few months. We have 
debated issues for quite a few hours, quite a few days, quite a 
few weeks. We debated issues when they were in this building. 
We debated issues when we were strung out at GAO and also 
Rayburn. No matter what was happening, we were continuing to 
discuss the issues, outreaching, talking to people on both 
sides of the aisle.
    Some will say this maybe isn't a perfect bill, but this is, 
I think, the way Congress should do its business, and there is 
still a process yet to go and I know that. But I believe that 
we worked together to put aside the politics, to come up with 
some ideas that I think is a good concrete plan that helps 
America vote. So I want to thank you publicly for all of your 
concern on this issue and due diligence. Thank you.
    Mr. Hoyer. Thank you very much, Mr. Chairman, and I 
certainly want to return the favor. We would not be here if it 
weren't for Chairman Ney. There is no doubt that he has 
demonstrated a commitment to working in a bipartisan fashion to 
come up with a bill that in my opinion is more than most would 
have hoped for, and I say that across the board in January or 
February or March or April when local groups were very 
concerned and others were very concerned about legislation. So 
I think Chairman Ney, his remarks that this is not a perfect 
bill, properly imply--undoubtedly apply to every bill that has 
ever been considered in the Congress of the United States. 
Having said that, I think this is a good bill. It is worthy of 
support and will move us forward.
    That does not mean that I think it cannot be strengthened. 
I think it probably can be, but it does mean that I think it is 
a very worthwhile piece of legislation, and I thank not only 
Congressman Ney but all the members of this committee who have 
worked within and with me in a positive fashion, and I say that 
to both sides of the aisle on this committee. All have made 
various and substantial contributions.
    I also want to thank John Conyers, the ranking Democrat on 
the Judiciary Committee, and Maxine Waters, the Chair of the 
Democrat Caucus Special Committee on Election Reform. Mr. 
Conyers does not believe this bill goes far enough. I 
understand his position. He has been critical of some of the 
things that we don't do, but I think and I hope that most 
people will focus on the things this bill does do, because they 
are very substantial. Chairman Ney has outlined them and I am 
going to reference some of those issues myself.
    In addition, on our side of the aisle, we have been very 
attuned to trying to give very personal attention to the report 
issued by the Waters committee, and in my opinion, we have 
included most, not all, but most of the issues that were raised 
in that very excellent report.
    As you will see, the legislation that we will mark up today 
incorporates many of the recommendations made not only by the 
Waters committee but by the Ford-Carter Commission, by the MIT-
CalTech group, and I am not going to mention them all, but very 
substantive groups that have looked at this. As Chairman Ney 
has indicated, we have also worked with people who have the 
responsibility on the local level in States and counties, 
cities, precincts, wards, to implement whatever is adopted.
    One year ago this month our Nation was in the throes of a 
political nightmare that would drag on for 5 excruciating 
weeks. None of us want to see that replayed. I recall that 1 
year ago today the headline that dominated page one of the 
Washington Post was this, and I quote, ``Bush's Florida lead 
swings to 300. Justification required on recounts. Pictures 
still muddled and legal tussles.''
    This bill is not to cast dispersions on any State, any 
candidate, any party. In point of fact, as we went on, we saw 
that no State was exempt from having problems with technology 
and with process. We hope that this bill will be a very 
definite contribution to fixing that.
    Uncertainty reigned in our democracy. Public confidence in 
our election system was shaken. The United States of America, 
the most technologically advanced Nation in the world, had not 
fulfilled its most basic election duty, the duty to count every 
citizen's vote, count it accurately and be able to report it 
quickly. In all the votes an estimated 2 million Americans went 
uncounted and, as was observed by the CalTech-MIT study, there 
were probably another 3 to 4 million votes that were not cast 
because of problems with registration. So this was not alone a 
problem of Election Day concerns, but of registration concerns 
as well.
    That situation was not and is not acceptable in our 
democracy now, after a year's examination and investigation of 
our election system by Congressional committee. I want to thank 
Bob Ney, in which Bob Ney in the House, who had hearings before 
anybody else did and right after the negotiations between 
Democrats and Republicans broke down about forming a bipartisan 
task force, when they no longer were viable, Chairman Ney came 
to me, and I came to him and we talked, and he said, we are 
going to have hearings right now. We had the earliest hearings. 
We had extensive hearings. They were broad-based. We included 
all interested parties, and those hearings were very, very 
useful in moving this process along.
    Very frankly, I had introduced a bill early on. It was a 
bill that had made election reform conditioned upon the receipt 
of money. That became a problem, which I will discuss a little 
further in just a second. But the time for talk has now, in my 
opinion, ended. It is time for us to act.
    Thus today, I am pleased to join Chairman Ney in strongly 
supporting the Help America Vote Act of 2001. This bipartisan 
legislation is not a magic elixir for the problems that plagued 
us last November. No legislation could be. But it prescribes 
the right medicine for our ailing election system, Federal 
assistance to the States and minimum election standards that 
are not optional, that are not conditioned upon the receipt of 
money. I think that is a critical addition to this bill which 
came after extensive discussions between myself and Chairman 
Conyers, Ranking Member Conyers, and Chairman Waters. This bill 
will significantly improve the integrity of our election 
process, improve voter participation, and I think go a long way 
towards restoring public confidence.
    The Help America Vote Act authorizes $2.65 billion for 
Federal election reform over 3 years. That is more money per 
year than any other bill that has been introduced, and that is 
a direct accomplishment, frankly, of Chairman Ney. He was 
tenacious on this. He felt that that sum at least was necessary 
to accomplish our objective, and I thank him for his leadership 
on that issue.
    In addition, Speaker Hastert has represented to both of us 
that he is going to support supplemental appropriations for 
fiscal year 2002, up to 600--not up to--650 million, 400 
million for the punch card buyout, which everybody recommended 
ought to be accomplished, and 250 million to accomplish the 
objectives set forth in the legislation for use of the general 
funds out of the election fund.
    It allocates $2.25 billion over 3 years for that general 
fund to help States establish and maintain accurate lists of 
eligible voters, obviously an issue that was confronted in 
2000. Improve equipment, clearly necessary. Recruit and train 
poll workers, a real problem all over the country. Improve 
access for disabled voters, in my opinion, a very important 
objective. And educate voters about their rights.
    Furthermore, the Help America Vote Act establishes minimum 
standards for State election systems that will be enforced, and 
the chairman has said this. There is no disagreement on this by 
the Department of Justice. Under this bill, the States must 
adopt, not advisory, not optional, they must adopt a statewide 
voter registration system linked to local jurisdictions. Ford-
Carter, Waters, other reports said that was critical to do. In-
precinct provisional voting, so that Americans do not go to a 
polling place and because of mechanical registration problems 
are turned away. They will be able to vote there with a 
provisional ballot in that precinct, a critical important step 
forward, in my opinion. A system for maintaining the accuracy 
of voter registration records, a language which we believe is--
and we have agreed between the parties is consistent with and 
in no way changes or undermines the motor-voter legislation, 
the National Voter Legislation Act.
    Uniform standards defining what constitutes a vote on the 
different types of voting equipment certified for use, that 
obviously is an issue raised by Bush v. Gore. It is safeguards 
ensuring that absent uniformed and overseas voters have their 
votes counted. We found, to our shock, at least to mine, that 
there were many jurisdictions that received absentee ballots 
from overseas, civilian and military, that did not count them 
unless counting them would make a difference in the outcome. 
There is no American who wants to take the trouble to vote who 
believes their vote is not counted simply because the other 
side got more votes than their vote would have made a 
difference.
    And assuring voters who make errors will be given 
opportunity to correct their ballots. And practical and 
effective means for voters with disabilities to cast secret 
ballots on new voting equipment. I intend to, as the chairman 
knows, because we have not gone as far as I thought we could 
have gone, offer an amendment to that section to be more 
specific, and I will offer that at the appropriate time, Mr. 
Chairman.
    Let me stress, these minimum standards are not 
discretionary, nor are they contingent on receipt of election 
payments. States shall enact these basic minimum protections, 
and they shall be enforced. The chairman has made that very 
clear in his opening statement.
    I especially want to thank advocates for the civil rights 
of disabilities communities for their help in crafting this 
bill. I do not attribute this bill to them, but they have been 
helpful and have been in communication with our staffs through 
the last 8, 9 months in getting to where we are. I understand 
that they are concerned that this bill does not go far enough.
    I made the point yesterday, I will make it today, and I 
will make it in the days to come, that this bill will go to 
conference. There will be other recommendations made, assuming 
the Senate passes a bill, and we will certainly look at ways 
and means to ensure the objectives of making sure that every 
American is facilitated in their voting, that every American's 
vote counts and is counted accurately.
    I appreciate and understand the views of those who are 
concerned about this bill. I think Mr. Fattah may have 
mentioned it, because we discussed it yesterday. We are 
committed to making sure that this bill is as good as we can 
get it. However, while this legislation is not perfect, it 
offers this distinct advantage. It has a realistic chance of 
passing this House and becoming law in time to avert another 
election nightmare 1 year from now.
    As the end of this session of Congress draws near, time is 
of the essence. The train has sounded its whistle, set to pull 
away from the station, and election reform, in my opinion, must 
be on board.
    Election reform is a down payment on the right that defines 
us, the basic right of every citizen to cast their vote and 
assist America in making its decisions.
    I urge my colleagues to join us in making this crucial 
investment. I want to also join the chairman. He mentioned Bob 
Bean and Keith Abouchar. I also want to mention Beth Stein, who 
is sitting out in the audience. Beth Stein was on the House 
Administration staff at the beginning of this year. She is now 
with Senator Cantwell, the newly elected Senator from 
Washington State, but she was very important in working on the 
initial bill that we introduced, which was a good bill at the 
time it was introduced, and this is a stronger, more 
comprehensive version of a compromise bill. I also want to 
thank Neil Volz, the Staff Director of the House Administration 
Committee, who has done an extraordinary job of--where is Neil?
    The Chairman. He is back there.
    Mr. Hoyer. I want to thank you, Neil, for the work that you 
have done in keeping us all targeted and keeping people happy. 
I want to thank Chet Kalis, who came in and did an 
extraordinary job. Chet, thank you for the hours you put in and 
the good humor that you exercised, even when I came back and 
said, no, we have got to make it stronger and you pulled out 
your hair because you thought that it had all been done, and I 
thank you for that.
    Paul Vinovich--where is Paul? Is Paul in the room? Oh, 
there he is. Paul, an outstanding lawyer, who was very involved 
in putting on paper our ideas, and if there are mistakes here, 
it is all your fault, Paul, none of ours. Of course Bob Ney and 
I have done it right. But Paul has done a great job for us. 
Maria Robinson, I also want to thank Maria Robinson. I don't 
know if Maria is back there. And Pat Leahy as well. I also 
would be remiss if I did not thank, not necessarily profusely, 
but thank my friend Roman Buhler, who----
    The Chairman. Can we make a note at 25 till 12:00, Mr. 
Hoyer said something nice about Roman.
    Mr. Hoyer. Those of you in the audience----
    The Chairman. That is inside----
    Mr. Hoyer. Mr. Buhler is one of the longest serving staff 
members of the House Administration Committee, and has, 
therefore, one of the longest memories of what has been done 
and hasn't been done. There are grievances that exist, but he 
and I have had a checkered career, but I want him to know that 
I thought, notwithstanding the fact that we disagreed on many 
items, that he did make a positive contribution to our final 
product, and I thank him for his work on this.
    Mr. Chairman, this has been a positive effort. We have much 
that is left to be done, but I think we can get it done.
    The Chairman. Thank you. Thank you very much, and we will 
move on to--and I forgot to mention--I mentioned all our staff 
except our Staff Director, so I am glad you threw that in 
there, Neil Volz.
    Mr. Hoyer. I am trying to take care of him, you know.
    The Chairman. And one enlightening thing that I have 
learned from Mr. Hoyer and Mr. Buhler, I learned the history of 
the House when I wasn't even here, so it was interesting.
    Mr. Ehlers.
    Mr. Ehlers. Oh, but, you know, when Wayne Hayes chaired 
this committee.
    The Chairman. That is right.
    Mr. Ehlers. Mr. Chairman, I congratulate you and Mr. Hoyer 
on this bill. I think it has gone a long way toward solving our 
election problems. I also want to thank you for including a 
bill that I had written separately, which passed the Science 
Committee, H.R. 2275, which dealt with a very important aspect 
of that, and let me just mention to those who are not aware of 
it, the role that this will play. I think it is going to be the 
most important factor in this bill in terms of the future 
development of voting equipment.
    Some years ago, local election officials began moving 
toward computerized voting equipment. Before then, it had 
simply been the paper ballot and the big iron monsters where 
you pulled the little levers down, and everybody viewed the 
computerization as a great step forward, but in many cases 
local election officials did not have the technical expertise 
to judge the quality of the equipment, the accuracy, the 
security, the integrity or the ability to test that equipment.
    At the same time, we have a Federal agency which is 
specifically devoted to setting standards and qualifications 
for the entire Nation, and that is the National Institute of 
Standards of Technology that has been in operation for much 
more than a century. It does an outstanding job for all of 
America, its industry and its commerce. So it was natural to 
ask them to become involved in helping to set standards for 
voting equipment.
    The portions of the bill that deals with that gives that 
responsibility to the National Institute of Standards. And the 
reason this is so important, much of the issues in the disputed 
election in Florida last year rose from the lack of quality and 
maintenance of equipment and using proper procedures with all 
the computerized equipment. We hoped that as a result of this 
bill, standards will be developed, not only for the quality of 
the equipment, but also the way in which it functions and the 
way in which it is maintained.
    There is another factor which is introduced in this 
section, which has not, to my knowledge, been ever discussed or 
brought forward in any major way, and that is the security of 
the voting system. We worry a great deal about locking up the 
ballots, sealing the ballot boxes and so forth, but we have not 
paid attention to the fact that almost any college freshman 
with a knowledge of computers could easily program the computer 
to read the results differently than the voters intended, and 
to therefore change an entire election just by changing the 
software in some minor way. So the National Institute of 
Standards and Technology, which is also expert in information 
technology, will be charged with the responsibility of 
developing safeguards so that computer security is 
strengthened. And with all of that work, I am convinced that in 
the future, from the technical standpoint, we can almost 
guarantee a total quality, accuracy, security and integrity of 
our voting results, and that is extremely important, and I 
appreciate the willingness of the other persons writing the 
bill to include that in it.
    Thank you.
    Mr. Hoyer. Mr. Chairman, if I can, I want to congratulate 
Mr. Ehlers. Mr. Ehlers I think is one of the experts in the 
House on technology, scientific background, and has been very 
helpful in modernizing the House's own technology. I think this 
was an extraordinarily useful and very important addition to 
the bill.
    Mr. Ehlers. Thank you.
    The Chairman. I do appreciate Mr. Ehlers' work, and Mr. 
Doolittle offered a lot on the list maintenance. Mr. Reynolds 
has an issue yet to help with the military, and I know members 
of both sides of the aisle have added their ideas and we 
appreciate that.
    Mr. Hoyer. Mr. Chairman, you were going to introduce Mr. 
Fattah and Mr. Davis I know now. I did not mention them, but 
both of them have been very, very helpful in the development of 
this bill from the--starting 9 months ago, 10 months ago till 
today, and I thank them. Without them we would not have gotten 
to this end. They both have been very helpful, and I want to 
thank them for that.
    The Chairman. I want to recognize Mr. Fattah, and thank 
you.
    Mr. Fattah. And thank you, Mr. Chairman. I will try to be 
brief and concise, but I need to say a few things. One is I 
started my public career, if you will, sitting on a panel back 
home in Philadelphia in 1979, reviewing an election along with 
the district attorney and a number of other people from both 
parties. There had been a massive breakdown of voter machines 
that had taken place on Election Day. In that election, the 
primary of 1979, in which the first serious African American 
candidate for mayor had run, and it just so happened about 90 
percent of these machines broke down in the wards in the 
African American community and he lost in a close race, and 
there was a lot of concern about the process. And when we 
finished that study, we determined that we needed to upgrade 
the machinery, and that we needed to do a better job in terms 
of locating polling places. It seemed that the more difficult 
and out of the way polling places for voters to find happened 
to be in the community most populated by African Americans. A 
whole host of other reforms, and I am happy to say, you know, a 
few decades later, we had just purchased these new machines in 
Philadelphia and spent a few hundred million dollars.
    The problem is between 1979 and now it took that long to 
get to where we are. I am hopeful that as this legislation 
moves forward, and the other pieces that are moving through the 
process, the Conyers bill and the Dodd bill, and that we get to 
some conclusion around here collectively about election reform. 
It won't take us decades to actually implement the reforms and 
that there will be some more immediate relief, because I think 
that we see now that our Nation, unfortunately, having gone 
through what we went through in the last presidential election, 
you know, really lost the ability to really shine our democracy 
in such a way around the world as some model for others to 
follow if we can't count votes of law-abiding citizens who come 
to the polling place. And we had just this week a rash of 
stories about how not only a lot of votes were not counted 
correctly, but how unfortunately, again, just like the 
Philadelphia story of 1979, somehow it wasn't evenly dispersed, 
this inability to get votes counted right. It seemed to be 
aggregated among racial minority groups, particularly African 
Americans, who for some reason or another, their votes in a 
larger proportion were not counted or those ballots were 
spoiled, and I think that raises a lot of concerns--and 
should--among us as policymakers and among the general public.
    So even though I also would like to thank the chairman, I 
would like to thank the ranking member and the staff, I really 
want to thank the public for being patient as we attempt to 
perfect this democracy, and for African American voters in this 
country, it has always been the Federal Government that has 
really stood to protect their right to vote, from the Voting 
Rights Act and due to interventions against the poll tax and 
the literacy test and a whole range of maneuvers at the local 
governmental level that has sought to deprive people of the 
right to vote.
    So I am hopeful that the Ney-Hoyer bill will be a part of 
that continuum of efforts by the Federal Government to ensure 
that people's rights will be protected. There is obviously 
items in the bill or not yet in the bill that I would like to 
see. I think we can do more to strengthen--I think we can do a 
lot more in terms of the disability communities, of concerns 
about access to polls and their ability to vote and have their 
votes protected. And I think there are issues related to the 
motor-voter implementation and the purge issue, even though I 
think we are probably a lot closer on some of those issues than 
we would suspect.
    But I think that we have to have a vehicle in order to get 
to an end product, and this is a vehicle. It is a contribution. 
And I note that our colleagues in the Senate are working their 
will. And I think that through it all, the more that we learn 
about this process, the more we will understand that this 
country's ability to face crises, like the ones we are facing 
now, is dependent upon the election of our leaders in ways in 
which we can have confidence that they have earned the right to 
lead and that there be no doubt about that. And I think that it 
would be helpful to us as a Nation never to ever again allow us 
to be in a situation we were in the last presidential election, 
and I think this bill makes a contribution in that regard.
    Thank you.
    The Chairman. I want to thank the gentleman for his 
thoughtful and sincere comments.
    Mr. Doolittle.
    Mr. Doolittle. Mr. Chairman, I think if we can ask one of 
our counsel to answer a question I have about a provision of 
the bill. By the way, I think it is a fine bill. I commend you 
and our ranking member and Mr. Blunt for putting together 
something I think we can all support. But the question I have 
specifically is on page 79. I understand beginning at line 14--
and I understand everything until we get to the phrase, which 
says, ``except that no registrant may be removed solely by 
reason of the failure to vote.'' and that seems to me to kind 
of muddy the water to what it said prior to that. So could I 
just ask what the effect of that is?
    The Chairman. Counsel is telling me you can't be removed 
simply because you haven't voted. You have to have not voted 
and not responded to a notice.
    Mr. Doolittle. Well, my question is--I mean, that is very 
clearly set forth as the requirement, and I think this somehow 
impugns what has gone before. I would like to urge you to take 
that phrase out, because in the preceding paragraph, it makes 
very clear that you cannot remove someone unless they have not 
voted for two or more consecutive general elections for a 
Federal office and who have not responded to a notice. And I 
just think to have that extra phrase in there is frankly 
unnecessary and possibly causes problems.
    The Chairman. And I wasn't here for motor-voter, but as I 
understand that law, it doesn't take you off anyway, the 
original motor-voter, for failure to vote. It doesn't.
    Mr. Hoyer. John, if I might respond, I think I understand 
what you are saying. If you read this two together, they both 
mean that you can't remove somebody for not voting solely. That 
is what the----
    Mr. Fattah. The gentleman suggested somebody that should be 
removed from the rolls?
    Mr. Hoyer. That is what the National Voter Registration Act 
says, and therefore from your perspective if that causes you 
some concern, it doesn't add anything or detract anything, but 
from our standpoint it makes it clear that is the intent. That 
is what the current law is and we just wanted to indicate so we 
don't create a controversy outside this bill that frankly we 
don't need. We have got enough controversy as it is.
    Mr. Doolittle. Well, I think I understand what the intent 
is, and I support the intent. I just think it is confusing. So 
maybe as we roll along, we can further evaluate what----
    The Chairman. I think what we can do is to take a look at--
and this bill is a thorough bill and that is why it tends to be 
a complicated bill. When we looked over these sections, you 
know, time after time after time again, we also had notified 
Justice to have a look, counsel, everybody has taken a look at 
it but----
    Mr. Doolittle. I guess, Mr. Chairman, my feeling is it lays 
out very clearly how someone is going to be removed and it 
stipulates, you know, you have to not vote in at least two 
Federal elections and you have to have not responded to a 
notice. But then when they go on the say, ``except that no 
registrant may be removed solely by reason of the failure to 
vote,'' well, that is not an exception, because the exception 
is contained in what goes before.
    The Chairman. But, again, as this process continues on, we 
will be glad to sit with all the parties affected and also with 
all the attorneys we need to look at this, to clarify what 
position we have on this.
    Mr. Ehlers.
    Mr. Ehlers. Just a short comment. That means if you die, 
you can stay on the voter rolls.
    The Chairman. I don't believe so. But any other opening 
statements?
    Mr. Davis. Mr. Chairman, one of the more articulate 
spokespeople on this bill was the Ohio Secretary of State, and 
in representing your district and your State and the country, I 
think we have really been faithful to what he suggested we do 
and how quickly and how vigorously we do it. So I salute you 
and Mr. Hoyer for having in mind a single clear goal at the 
beginning that really helped us escape any partisan trappings 
that could have easily submerged this bill.
    Everyone in this committee knows by now that what happened 
in Florida could have happened elsewhere and did to a certain 
extent, and I believe we are all resolved that that not happen 
again. As the most recent media reports make painfully clear 
once again, the margin of error exceeded the margin of victory 
in Florida. One of the painful lessons we learned was the need 
to have a voter verification system which is at the center of 
this bill. It will allow increasing numbers of first-time 
voters and people who have some difficulty in voting because of 
age or some other infirmity to be more assured of casting their 
vote appropriately and with confidence. Time is of the essence 
with this bill. I think we should stick with Congressman 
Hoyer's goal of trying to have some influence on the quality 
and integrity of the 2002 elections. I know that is getting 
increasingly difficult in certain parts of the country, but 
this money is not just for the machines. I think we all know 
that a lot of the cost of the election infrastructure in our 
State and local government suffers from benign neglect and at a 
time where State and local government is increasingly 
experiencing revenue shortfalls, the money that we are going to 
get out to deal with poll workers, training, education and 
those details that usually go unnoticed is going to be more 
important than ever.
    To those who think this bill doesn't go far enough, let me 
just say that those of us in Florida who have become experts on 
election law, every Democrat in the Florida Congressional 
delegation is a cosponsor of this bill, and I am confident that 
most all of the Republicans will be as well, and certainly 
Chairman Young has been a strong supporter. We are resolved 
that we should not repeat the lessons that occurred in the last 
election in 2002. And while there may be room for improvement 
along the amendatory process or in the next session of 
Congress, we would urge those of you who want to improve the 
bill to keep in mind that ultimately something is better than 
nothing here, particularly since the clock is ticking on the 
2002 elections.
    So thank you again Mr. Hoyer, Mr. Chairman, for your work 
on this bill.
    The Chairman. Thank you. Mr. Reynolds.
    Mr. Ehlers. Thank you, Mr. Chairman, for giving me the 
opportunity----
    The Chairman. Mr. Ehlers--I am sorry. Mr. Reynolds.
    Mr. Reynolds. Mr. Chairman, at this point in our Nation's 
history, our society is once again reflecting on the great 
rights and privileges we enjoy as citizens of the United 
States. And no right is more fundamental or basic in our way of 
life than the right to vote. I just want to join in the chorus 
of this committee to thank you as chairman and Ranking Member 
Hoyer for your leadership in working closely with this 
committee and the House as a whole as we brought experts from 
across the country in here in a bipartisan fashion to outline 
the challenges of elections at the State and local level and 
some of the solutions where we could be helpful. And you are 
both to be commended for putting together what is a 
comprehensive and challenging bill that now enjoys such strong 
support with cosponsorship as we move this through the House.
    The Chairman. Thank you. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I just wanted to add a 
comment to my previous statement, and I ask unanimous consent 
that this be entered in the record with my original statement.
    The Chairman. Without objection.
    Mr. Ehlers. I neglected to mention an important factor of 
the bill that I had authored, which is incorporated here, is to 
require also in addition to the technical research, there will 
be human factors research on making the computer or the 
operating system or the ballot as understandable as possible, 
so research will have to be done so that there can be a minimum 
of voter confusion. I have often heard people say, well, we 
need better voter education. That is not the answer. You can't 
teach people very well to do something they only do a couple 
times a year and expect them to remember it. We have to have 
systems that are so simple and straightforward that there 
cannot be confusion, there cannot be any wrong voting as a 
result of misunderstanding. And so I hope that this addition 
will take care of it.
    Mr. Hoyer. Would the gentleman yield?
    Mr. Ehlers. Yes.
    Mr. Hoyer. As you know, we have included in this bill 
grants, both for nonprofits, i.e., universities. Chairman Ney 
was very much involved in that, as you were, and for 
manufacturers who may want to participate like they do with 
DARPA in developing new technology to accomplish exactly that 
objective. I agree with you 100 percent. We ought to be able to 
make technology that is so voter friendly that in and of itself 
it will reduce very substantially errors, which of course is 
our objective.
    Mr. Ehlers. I thank you very much, and I ask unanimous 
consent that that also be entered immediately after----
    The Chairman. Without objection. I wanted to note on that 
that the three different ways to receive that money, you have 
public and private and the pilot program. If you talk to some 
of the people that came here from around the country that did 
the expo here in the room, some of these companies are 
developing devices that automatically take into account every 
form of a disability or the ability of a voter to vote that may 
have some technical problems with voting, and I am hoping 
that--and I am not saying secure of, but technology is going to 
be part of the ability to have good accurate votes, and I am 
hoping that that entrepreneurial money and research only will 
help towards that cause.
    Mr. Linder.
    Mr. Linder. Thank you, Mr. Chairman. I will submit a 
statement in writing for the record, and let me just say that 
as we move through these processes, I would hope at some point 
we take as much interest in making sure that the person who 
presents himself for a ballot is indeed who he says he is. We 
have not been doing enough to eliminate voter fraud and I hope 
as we move forward, we will do some of that.
    Thank you.
    [The statement of Mr. Linder follows:]

                     Statement of Hon. John Linder

    Mr. Chairman, as terrorists attempt to undermine our democracy, it 
is fundamental that Congress work to safeguard the very elements of 
that democracy. The right to vote--the ability to cast a ballot and 
influence the political state of affairs regardless of sex, race or 
circumstance--is the very essence of a democratic society, and without 
the opportunity to freely and openly voice thoughts and concerns at the 
ballot box, Americans would be no better off than the citizens 
oppressed by governments throughout the world. And thus, I am pleased 
to join my colleagues here today in marking-up legislation that will 
make significant strides in ensuring voting rights for all Americans.
    The Founders of our nation intentionally avoided issuing specific 
guidelines by which the states were to conduct elections because they 
recognized that circumstances and needs would be different throughout 
the country. I believe this is the correct approach, and it is not the 
federal government's role to mandate the type of election equipment 
used in every voting precinct or to require a standard procedure for 
resolving election disputes for local office. The ``Help America Vote 
Act'' maintains this ``hands-off'' federal role, and reaffirms that our 
role is one of facilitation rather than regulation and imposition.
    The bill provides federal guidance without imposing federal 
mandates, financial assistance without burdensome federal regulation. 
Additionally, it establishes minimum standards to help states create 
uniformity in election procedures and facilitate fair and accurate 
voting standards across precincts.
    The ``Help America Vote Act'' will also eliminate a significant 
source of fraud and abuse that has plagued our election system for 
decades. The bill provides for list maintenance, which allows election 
officials to eliminate fraudulent and duplicate entries on registration 
rolls. Inaccurate voter registration lists condone voter fraud and 
undermine the integrity of our electoral process. If we are to have 
faith in the sanctity of election results, we must be able to confirm 
the identity of voters and know that only those individuals who are 
eligible to vote actually cast ballots.
    As Americans, we are privileged to live in a society that 
recognizes the importance of an individual's right to vote. Perhaps 
this single act is among the most American that we undertake on a 
regular basis, as it recognizes our commitment to the principles of 
democracy and freedom. And today, Congress reaffirms our commitment to 
those principles and acknowledges the role of voting in maintaining 
them.

    The Chairman. I want to thank the gentleman. The Chair lays 
before the committee the bill H.R. 3295 that has been provided 
to members in advance. Without objection, the bill will be 
considered as read and open to amendment at any point.
    Are there any amendments? Mr. Reynolds.
    Mr. Reynolds. Mr. Chairman, I am offering an amendment on 
behalf of our colleague Mark Kirk, who--with legislation that 
outlined what my proposal is to allow polling places to be 
located on military installations. This amendment repeals a 
136-year-old Civil War law that the Defense Department only 
began to reinforce in 1999 to outlaw existing polling places. 
Language inserted in the fiscal year 2001 appropriations bill 
suspended the enforcement of this law in 2000, but a permanent 
solution is needed.
    The amendment allows but does not require military base 
commanders to permit voting sites on military installations. 
These polling places would be only for residents of that 
military installation. The Kirk amendment keeps politics and 
the military separate. It only allows military voters the right 
to vote near their residence, like any other American.
    Without this amendment, on some large installations, base 
residents would have to travel for many miles to reach an off-
base voting site. The Congressional Research Service has 
identified at least 20 affected jurisdictions' polling, some of 
which have been in use for at least 15 years. This amendment 
ensures that these base residents have the same convenient 
access to a local polling place as other Americans.
    This language has been approved by the Defense Department 
and the White House, and I urge its adoption.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9916A.001
    
    [GRAPHIC] [TIFF OMITTED] T9916A.002
    
    [GRAPHIC] [TIFF OMITTED] T9916A.003
    
    [GRAPHIC] [TIFF OMITTED] T9916A.004
    
    The Chairman. Is there any discussion on the amendment?
    Mr. Davis. Mr. Chairman.
    The Chairman. Mr. Davis.
    Mr. Davis. I would like to ask a couple questions of Mr. 
Reynolds, if I can. I am generally a supporter of this concept, 
Mr. Reynolds, but the devil of course is in the details. Don't 
we already have language that is the subject of the conference 
committee on the defense authorization bill that comes 
reasonably close to doing what your amendment will be doing 
today?
    Mr. Reynolds. I can say that the language that was inserted 
in the 2001 appropriation bill suspended the enforcement of the 
law in 2000, but it does not reflect a permanent solution, 
which this Representative would do.
    Mr. Davis. Mr. Chairman, perhaps Mr. Reynolds would like to 
see a copy of this. I have a copy of a letter to the ranking 
Democrat on the Armed Services Committee, Mr. Skelton, that 
appears to be--it is from the Defense--the Justice Department. 
It appears to be commenting on language that is in the 2002 
defense authorization bill.
    Mr. Reynolds. Has that gone to conference and come before 
us?
    Mr. Davis. I believe that it has, and I would like to give 
you a chance to look at this and see whether it might lead you 
to believe that perhaps this issue is already being addressed 
in the conference committee. And if it is not being addressed, 
this amendment could be offered on the floor.
    And the other point I want to----
    The Chairman. Would the gentleman yield? I just note that 
it was in the House version and not the Senate version. So I am 
not sure as to--it was in the House version.
    Mr. Reynolds. And I do know from being on the Rules 
Committee that the conference committee has not concluded its 
work, and we have no final idea what is in the defense 
authorization bill. As a matter of fact, this body could 
consider an appropriations bill on defense before we actually 
have a conference report back on the defense authorization.
    Mr. Davis. Well, the further point I wanted to make is that 
this is a letter to Congressman Skelton expressing concerns and 
suggestions about this language, which we have had no testimony 
on. We have absolutely no record on this, Mr. Chairman, and 
again, I am a supporter of the concept but if we are going to 
put something into this bill, I would prefer we do it with a 
little bit more preparation, and it does appear to be an active 
issue in the conference committee. I cannot speak to what is in 
the Senate bill, but perhaps we can find out more----
    Mr. Reynolds. Would the gentleman yield?
    Mr. Davis. Absolutely.
    Mr. Reynolds. A similar bill, H.R. 2006, passed in the 
House on October 10, 2000 by a vote of 297 to 112 on this. So 
it is not a new concept or a new language of legislation. The 
House has seen it in prior existence, and we have just dealt 
with it on a temporary basis versus permanent.
    Mr. Davis. And Mr. Chairman, and I believe I voted for that 
bill, Mr. Reynolds. And here is another letter. I would like to 
ask both these letters be entered into the record.
    The Chairman. Without objection.
    [The information follows:]

                             Department of Justice,
                             Office of Legislative Affairs,
                                 Washington, DC, November 13, 2001.
Hon. Ike Skelton,
Ranking Minority Member, Committee on the Armed Services,
House of Representatives, Washington, DC.
    Dear Congressman Skelton: This letter presents the views of the 
Department of Justice on S. 1438, the ``National Defense Authorization 
Act for Fiscal Year 2002,'' as passed by the House and Senate. The 
Department has constitutional and other concerns about both versions of 
the bill.

                            I. House Version

                       A. CONSTITUTIONAL CONCERNS

Section 141: Destruction of chemical and munitions stockpiles
    Section 141 of the bill would amend section 152 of the National 
Defense Authorization Act for Fiscal Year 1996 (Pub. L. 104-106; 50 
U.S.C. Sec. 1521 note) to restrict the Secretary of Defense from 
initiating destruction of a chemical munitions stockpile stored at a 
site until, inter alia, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics ``recommends initiation of destruction at the 
site after considering the recommendation by the [oversight] board 
established by subsection (g).'' Proposed section 152(b)(5). The 
oversight board in question ``established by subsection (g)'' would 
include as one of its six members an ``individual designated by the 
Under Secretary from a list of three local representatives of the area 
in which the site is located, prepared jointly by the Member of the 
House of Representatives who represents the Congressional District in 
which the site is located and the Senators representing the State in 
which the site is located.'' Proposed section 152(g)(1)(F). If an 
oversight board were to recommend against initiation of destruction of 
the chemical munitions stockpile at a particular site, the Under 
Secretary then would be prohibited from recommending to the Secretary 
the initiation of destruction ``until 90 days after the Under Secretary 
provides notice to Congress of the intent to recommend initiation of 
destruction,'' proposed section 152(g)(3)--which, in turn, would 
prevent the Secretary from initiating destruction of a chemical 
munitions stockpile until 90 days after the Under Secretary had 
provided the notice of intent to Congress. Ultimately, an oversight 
board that includes a member who is in effect designated by 
congressional agents would have the power to delay the Under 
Secretary's recommendation to the Secretary, and the Secretary's 
execution of a power otherwise duly delegated to him.
    Such a power to delay Executive action, if viewed as the exercise 
of ``significant authority pursuant to the laws of the United States,'' 
Buckley v. Valeo, 424 U.S. 1, 126 (1976)(per curiam), would render the 
Board members ``Officers'' who must be appointed in conformity with the 
Appointments Clause of the Constitution, U.S. Const. art. II, section 
2, c1.2 (providing that principal officers must be appointed by the 
President with the advice and consent of the Senate and that inferior 
officers may be appointed by the President alone, the courts, or the 
Heads of Departments). The ``sixth'' member of each oversight board 
would be appointed, not by the Head of a Department, but instead by the 
Under Secretary, which would raise an Apppointments Clause problem 
assuming the member is an inferior officer. Moreover, the bill would 
limit the pool of persons that the Under Secretary may consider for 
such positions to those persons recommended by the designated members 
of Congress. The Constitution does not permit Congress to direct the 
appointing authority (the President, the Federal Courts, or the heads 
of departments) to select an officer from a list submitted by Congress, 
or otherwise to restrict unduly the apointment discretion. See, e.g., 
Civil-Service Comm'n, 13 Op. Att'y Gen. 516, 520-21, 524-25 (1871); 
Promotion of Marine Officer, 41 Op. Att'y Gen. 291 (1956). Moreover, 
congressional officials' power to establish the lists from which 
persons would be chosen for service on the oversight boards also raises 
separation of powers questions, because Congress may not vest executive 
functions in a person or entity subject to congressional control. See, 
e.g., Metropolitan Washington Airports Auth. v. Citizens for the 
Abatement of Aircraft Noise, Inc., 501 U.S. 252 (1991); Bowsher v. 
Synar, 478 U.S. 714 (1986).

Section 542: Medal of Honor for Jewish and Hispanic Veterans
    Section 542 of the bill would require the Secretary of each 
military department to review the service records of certain Jewish 
American and Hispanic American war veterans to determine whether or not 
those veterans should be awarded the Medal of Honor. Subsections 542(e) 
and (f) would provide that the President could make an award of the 
Medal of Honor to such Jewish American and Hispanic American war 
veterans, in accordance with a recommendation of a Secretary, without 
regard to: (1) any regulation or other administrative restriction on 
the time for awarding the Medal of Honor; (2) any regulation or other 
administrative restriction on the awarding of the Medal of Honor for 
service for which a Distinguished Service Cross, Navy Cross, or Air 
Force Cross has been awarded; and (3) specific statutory criteria, 
restrictions, and limitations (e.g., time limitations) respecting the 
award of the Medal of Honor that are codified in 10 U.S.C. 
Sec. Sec. 3744, 6248, and 8744. Subsection 542(g) would define ``Jewish 
American war veteran ``to mean'' any person who served in the Armed 
Forces during World War II or a later period of war and who identified 
himself or herself as Jewish on his or her military personnel 
records.''
    The exemptions and exceptions contained in subsection 542(f) raise 
serious concerns under the Establishment Clause of the First Amendment 
and the Equal Protection component of the Due Process Clause of the 
Fifth Amendment, by making certain Jewish and Hispanic veterans 
eligible for the Medal of Honor under circumstances in which other, 
similarly situated veterans would not be eligible to receive the award. 
With respect to Jewish American war veterans, the distinction in 
question likely would be viewed as a sect-based religious 
classification. ``The clearest command of the Establishment Clause is 
that one religious denomination cannot be officially preferred over 
another.'' Larson v. Valente, 456 U.S. 228, 244 (1982). Accordingly, a 
denominational preference can be constitutional, if at all, only if it 
``is justified by a compelling governmental interest * * * and * * * is 
closely fitted to further that interest.'' Id. at 247. Similarly, the 
Equal Protection Clause of the Fourteenth Amendment in many contexts 
would prohibit States from discriminating on the basis of 
religion,<SUP>1</SUP> and this prohibition would apply to the Federal 
government by virtue of the equal protection component of the Due 
Process Clause of the Fifth Amendment.<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ See, e.g., Niematko v. Maryland, 340 U.S. 268 (1951); Fowler v. 
Rhode Island, 345 U.S. 67 (1953); McDaniel v. Paty, 435 U.S. 618, 643-
46 (1978) (White, I., concurring in the judgment).
    \2\ See United States v. Armstrong, 517 U.S. 456, 464 (1996) 
(citing Oyler v. Boles, 368 U.S. 448, 456 (1962)).
---------------------------------------------------------------------------
    With respect to Hispanic American war veterans, the distinction in 
question likely would be viewed as a racial classification. The equal 
protection component of the Due Process Clause of the Fifth Amendment 
permits such a racial classification only if it furthers a compelling 
government interest (such as remedying past discrimination) and is 
narrowly tailored to achieve that interest. Adarand Constructors, Inc. 
v. Pena, 515 U.S. 200, 227 (1995).
    The bill itself does not explain what compelling government 
interests might underlie the religious and racial classifications in 
section 542(f). To survive strict scrutiny, the provision needs--at a 
minimum--to be supported by specific findings (backed up by a 
documented record) of past governmental discrimination against Jewish 
and Hispanic veterans with respect to the award of such medals.

Section 1051(a): Plan for securing Russia's nuclear weapons, material, 
        and expertise
    Section 1051(a) of the bill would require the President to submit 
to Congress, not later than June 15, 2002, a plan ``for cooperation 
with Russia on disposition as soon as practicable of nuclear weapons 
and weapons-usable nuclear material in Russia that Russia does not 
retain in its nuclear arsenal; and * * * to prevent the outflow from 
Russia of scientific expertise that could be used for developing 
nuclear weapons or other weapons of mass destruction, including 
delivery systems.'' Subsection 1051(c), in turn, would provide that 
``[i]n developing the plan required by subsection (a), the President 
shall consult with Russia regarding the practicality of various 
options.''
    The Constitution commits to the President the primary 
responsibility for conducting the foreign relations of the United 
States, see, e.g., Department of Navy v. Egan, 484 U.S. 518, 529 (1988) 
(the Supreme Court has ``recognized `the generally accepted view that 
foreign policy was the province and responsibility of the Executive' 
'') (quoting Haig v. Agee, 453 U.S. 280, 293-94 (1981)); Alfred Dunhill 
of London, Inc. v. Republic of Cuba, 425 U.S. 682, 705-06 n.18 (1976) 
(``[T]he conduct of [foreign policy] is committed primarily to the 
Executive Branch''), and the exclusive responsibility for formulating 
the position of the United States in international fora and for 
conducting negotiations with foreign nations, see, e.g., United States 
v. Louisiana, 363 U.S. 1, 35(1960) (the President is ``the 
constitutional representative of the United States in its dealings with 
foreign nations''). Subsection 1051(c) would appear to violate these 
principles by requiring the President to ``consult'' with Russia on a 
particular subject, even in circumstances where the President might 
conclude that such consultation would be detrimental to United States 
foreign relations. Therefore, we recommend that the word ``shall'' in 
subsection 1051(c) be changed to ``should.''

                           B. OTHER CONCERNS

Sections 552 and 2813: Electronic voting demonstration project
    While we do not object to sections 552 and 2813, we note that the 
implementation of certain aspects of these sections by States and 
localities that are subject to section 5 of the Voting Rights Act, 42 
U.S.C. 1973c, would require preclearance pursuant to the Act. For 
example, the discretionary decision to establish new polling places on 
military installations would need to be submitted for section 5 review. 
With respect to the electronic voting demonstration project, any 
covered State or locality that chose to participate would be required 
to submit for section 5 review its implementation procedures for 
carrying out the alternate method of voting. Such submissions were made 
by counties around the country that participated in a similar Defense 
Department project in the 2000 election.

Section 1024: Assignment of Armed Forces to assist the INS and the 
        Customs Service
    Section 1024 of the House version would authorize the Secretary of 
Defense (upon presidential certification of a request of the Attorney 
General or by the Secretary of the Treasury) to assign members of the 
military to assist the Immigration and Naturalization Service (``INS'') 
and the Customs Service in combating terrorists and drug traffickers. 
We support section 1024 except for its requirement that the assisted 
agency reimburse the Defense Department for assistance provided (in the 
absence a waiver from the Defense Department). The legislation should 
not give the Secretary of Defense--or the Attorney General--the 
authority to decide unilaterally which of the two Executive departments 
involved will pay from its appropriations the cost of the support 
provided. Instead, the legislation should leave that decision to the 
President, to be made at the time in the light of the circumstances 
then prevailing.

Section 1107: Limitation upon premium pay
    Section 1107 of the House version would make Government-wide 
changes to overtime pay provisions of FEPA. The Administration strongly 
opposes section 1107 and urges its deletion from the bill.
    We also note that section 1107 contains what appears to be a 
typographical error that would significantly limit Federal civilian 
employees' entitlement to overtime pay under title 5. Currently, an 
employee's entitlement to receive premium pay for overtime work is 
capped at rate of GS-15, step 10. Section 1107 provides that an 
employee may be paid premium pay under FEPA only to the extent that the 
employee's aggregate pay ``would . . . exceed'' the maximum rate of pay 
of a GS-15. Thus, as drafted, section 1107 would permit agencies to pay 
premium pay only when an employee's aggregate annual pay, i.e., basic 
pay plus premium pay, exceeded the rate of GS-15, step 10. This 
effectively would limit payment for overtime work to the highest-paid 
General Schedule employees.
    Presumably, the drafters intended that section 1107 permit premium 
pay for an employee only to the extent the employee's aggregate pay 
would not exceed the statutory pay limitation. See 5 U.S.C. 
Sec. 5547(a) (which currently provides that an employee may be paid 
premium pay ``only to the extent that the payment does not cause his 
aggregate rate of pay for any pay period to exceed the maximum rate for 
GS-15'').
    Additionally, section 1107 would change the period of time used to 
determine an employee's aggregate pay from ``any pay period'' to ``in 
any calendar year.'' This change would make it difficult--if not 
impossible--to determine the appropriate amount of pay in any given pay 
period because the agency could not determine prospectively whether or 
to what extent an employee's aggregate annual pay would exceed the 
maximum limitation on premium pay.
    Currently, an agency determines at the end of each pay period the 
extent to which an employee's basic pay at the time, plus any premium 
pay due for approved overtime hours during the pay period, would exceed 
the GS-15, step 10, pay limitation and adjusts the employer's total pay 
accordingly. However, because an agency likely would not know at the 
end of each pay period the amount of any adjustments that would be made 
to an employer's basic pay during the remainder of the calendar year 
(such as fiscal year cost of living or locality pay adjustments, 
unscheduled promotions or within grade increases (or denial of 
otherwise scheduled promotions or within grades)), or the total amount 
of premium pay the employee would receive during the calendar year (due 
both to fluctuations in the statutory rate for premium pay and the 
number of compensable overtime hours that will be worked), it would be 
necessary to wait until the end of the calendar year to determine the 
employee's aggregate pay and whether, and to what extent, it had 
exceeded the statutory limit. As a result, an employee's final pay 
check in each calendar year would have to be adjusted, i.e., reduced to 
account for any overpayments or increased for underpayments, made 
during the course of the calendar year that resulted from the 
employee's annual aggregate pay having exceeded the pay limitation. The 
proposed change of the time period for computing the pay limitation in 
proposed subsection (c) also would affect the payment of overtime to 
certain law enforcement officers.

Section 2812: Defense Department Indemnification for pollutant harm
    Section 2812 of the House version would require the Secretary of 
Defense to indemnify persons or entities that own or control property 
that previously was part of the Brooks Air Force Base in Texas. Among 
other things, the Secretary would be required to hold harmless, defend, 
and indemnify in full the persons or entities with respect to any 
liability arising from the release or threatened release of any 
hazardous substance, pollutant, or contaminant, or petroleum or 
petroleum derivative as a result of Defense Department activities, 
including liability under the Comprehensive Environmental, Response, 
Compensation, and Liability Act (``CERCLA''). We strongly oppose the 
broad indemnification this provision would establish.
    First, the provision does not condition the United States' 
liability upon previously appropriated monies. This contravenes the 
sound principles underlying the Anti-Deficiency Act, 31 U.S.C. 

Sec. 1341.
    Second, section 2812 expands the United States' potential tort 
liability well beyond that provided in the Federal Tort Claims Act 
(``FTCA''), 28 U.S.C. Sec. 2671, which provides a well-established and 
effective mechanism for dealing with the government's potential tort 
liability. Further, an important element of tort law is deterrence, not 
simply compensation after the fact of injury. This indemnity clause 
creates a disincentive for unknown future lessees and transferees of 
the property to make full disclosure, issue appropriate warnings, and 
exercise due care concerning the prior use and potential contamination 
from the property.
    Finally, section 2812 would be a potential source of legal 
uncertainty. In accordance with existing law, including section 120 of 
CERCLA, the Defense Department already has a legal responsibility to 
clean-up, or pay for the clean-up of, Defense Department property. We 
are concerned that section 2812 would imply that the current legal 
requirements are insufficient and therefore create both significant 
legal problems for the Federal government as well as the potential for 
large unfunded liabilities. Depending on the clean-up issues attendant 
to the site, subsection 2812(a)(3) of this section might create a 
situation in which United States is required to defend commercial or 
corporate entities against which it had brought an enforcement action 
under CERCLA.
    We urge that section 2812 be stricken from the bill. If it is 
retained, it should be modified to clarify that indemnification 
payments can be made only from previously appropriated Department of 
Defense funds. Moreover, any decision of whether to settle or defend a 
claim brought against a transferee should be subject to approval by the 
Attorney General. Finally, the obligation to indemnify should terminate 
at a time certain, for instance, five years after the transfer.

Section 2813: Use of military buildings as polling places
    Section 2813 would implicate two Federal criminal statutes relating 
to voting. It would incorporate into permanent law authorization for 
polling places on military installations and reserve facilities, 
``notwithstanding'' chapter 29 of title 18, and specifically, 
notwithstanding section 592, which prohibits stationing armed troops at 
polls, and section 593, which prohibits interference with voting by 
military officers.
    Section 2813 is consistent with the temporary authorization 
approved last year for such voting places for the 2000 general 
election. Section 2813 should more fully address the potential 
applicability of sections 592 and 593 of title 18 to actions that an 
installation commander might be required to take in order to protect 
people or property from imminent harm while a building on a military 
installation is being used as a polling place. We suggest that both 
provisions include an exception for the legitimate law enforcement 
actions of military personnel to protect people or property from 
imminent harm at any place where a general or special election is held 
on a military installation in accordance with sections 2670(h), 18235, 
or 18236 or title 10.

                           II. Senate Version

                       A. CONSTITUTIONAL CONCERNS

    Two sections of the Senate version raise constitutional concerns.
                                 ______
                                 
Section 823: Mentor-Protege procurement program
    Section 823 would codify the ``Mentor-Protege'' defense contracting 
program (``mentor program'') as a permanent provision at 10 U.S.C. 
Sec. 2403. We have serious constitutional concerns about this program. 
These concerns are underscored by a recent Federal court of appeals 
opinion reversing a lower court decision that had upheld the 
constitutionality of a defense contract preference program (section 
1207 of the National Defense Authorization Act of 1987) that was based 
on the same definition of ``disadvantaged small business concern'' 
underlying the mentor program (i.e., 15 U.S.C. Sec. 637(d)(3)(C)). See 
Rothe Development Corp. v. U.S. Dept. of Defense, 262 F.3d 1306 (Fed. 
Cir. 2001).
    The mentor program extends various substantial Federal contracting 
benefits and preferences to ``eligible small business concerns.'' The 
provision defines ``eligible small business concerns'' to mean either 
``a disadvantaged small business concern'' or ``a small business 
concern owned and controlled by women.'' The former term is defined to 
mean ``a small business concern owned and controlled by socially and 
economically disadvantaged individuals, as defined in section 
8(d)(3)(C) of the Small Business Act (``SBA,'' 15 U.S.C. 
637(d)(3)(C)),'' business entities owned and controlled by Indian 
tribes or Native Hawaiian Organizations, or qualified organizations 
employing the severely disabled. Under section 8(d) of the SBA, there 
is a statutory presumption that certain designated racial or ethnic 
groups (e.g., Blacks, Hispanics, Native Americans, and Asian Pacific 
Americans) satisfy the requirement for social and economic 
disadvantage. See 15 U.S.C. Sec. 637(d)(3)(C).
    The provisions of the mentor program applicable to minority 
institutions--as distinguished from the women-owned concerns \3\--would 
be subject to strict scrutiny under Adarand Constructors Inc. v. Pena, 
515 U.S. 200 (1995), ``as racial or ethnic classifications.'' From the 
fact of the bill's language establishing the program, we cannot discern 
the objectives or supporting evidence that would be likely to satisfy 
review under that test. Our concerns in this respect are amplified by 
the Rothe opinion.
---------------------------------------------------------------------------
    \3\ Gender-based classifications currently are subject to a form of 
equal protection scrutiny (``intermediate scrutiny'') that is less 
exacting than the strict scrutiny applied to racial or ethnic 
classifications. However, it is not at all clear that S. 1438's 
preferential provision for female-owned concerns would satisfy even 
that level of constitutional scrutiny without a factual demonstration 
of the ``exceedingly persuasive justification'' required to satisfy 
that standard. See United States v. Virginia, 116 S. Ct. 2264, 2274 
(1996).
---------------------------------------------------------------------------
    The Rothe opinion sets forth exacting standards that would have to 
be satisfied upon remand if the Defense Department's ``Section 1207'' 
contracting goal program could be considered constitutionally 
sustainable. Apart from demonstrating a compelling government interest 
that is applicable to all of the racial or ethnic groups that benefit 
from the bill's statutory presumption of social and economic 
disadvantage, the following factors must be considered in evaluating 
whether the program is narrowly tailored to satisfy such compelling 
interest: (1) the necessity of the remedy; (2) the efficacy of 
alternative, race-neutral remedies; (3) the flexibility of the remedy; 
(4) the relationship of the remedy to the relevant labor market; (5) 
the impact of the remedy on the rights of third parties; and (6) the 
overinclusiveness or underinclusiveness of the racial or ethnic 
classification used in the program. Section 823's mentor-protege 
provisions likely would be subject to the same or similar standards. In 
the absence of a supporting demonstration that the mentor program 
satisfies these standards, the provisions is constitutionally 
objectionable.

Section 1044: Chief Operating Officer of the Armed Forces Retirement 
        Home
    Section 1044 of the bill provides for the appointment of a Chief 
operating Officer of the Armed Forces Retirement Home by the Secretary 
of Defense. It appears that this Chief Operating Officer would be an 
inferior officer of the United States, whose appointment is governed by 
the provisions of the Appointments Clause, U.S. Const. art. II, sec 2 
cl.2. Section 1044 requires that the person appointed to this office 
must, inter alia, (1) be a continuing care retirement community 
professional; (2) possess experience and expertise in the operation and 
management of retirement homes; and (3) posses experience and expertise 
in the provision of long-term medical care for older persons. We have 
objected consistently to legislative provisions that unduly restrict 
the ``scope for the judgment and will of the person in whom the 
Constitution vests the power of appointment'' as being inconsistent 
with the Appointments Clause, Civil Service Commission, 13 Op. Att'y 
Gen. 516, 520-21 (1871). Because we believe the above provisions unduly 
restrict the Secretary's appointment power, we object to this 
provision.

                           B. OTHER CONCERNS

Section 821: Competition requirements for required source purchases
    Section 821 of the Senate version would limit the applicability of 
mandatory source requirements to the Secretary of Defense with regard 
to procurement from the Federal Prison Industries (``FPI'' or trade 
name UNICOR). The FPI is the Bureau of Prisons' most important 
management program to relieve inmate idleness and to provide job skills 
that reduce recidivism.We have sent a separate letter setting forth our 
concerns with this provision.

Section 1066: Radiation exposure compensation
    Section 1066 of the Senate version would establish capped 
entitlement payments for the Radiation Exposure Compensation Act 
program. We support this provision because we expect the amounts 
provided under it to cover the cost of the awards we project. However, 
the House version does not contain funding language for the radiation 
compensation program. We urge the inclusion of section 1066 of the 
Senate version in the ultimate version of the Defense Authorization 
Act.

Section 3151: Energy employees occupational illness compensation 
        program
    The Department of Justice opposes section 3151(c), which would 
loosen the standard for recovery for chronic silicosis under the Energy 
Employees Occupational Illness Compensation Act (``EEOICA''). Under 
current law, chronic silicosis is the only condition for which the 
EEOICA provides compensation where the exposure to potentially 
hazardous material was not unique to the Nation's nuclear weapons 
program. Thus, it does not promote the objectives of the EEOICA to 
``ensure fairness and equity'' for civilians who ``performed duties 
uniquely related to the nuclear weapons production and testing 
programs'' of the Government for ``beryllium-related health conditions 
and radiation-related health conditions.'' See Pub. L. 106-398, 
Sec. 3602(a)(8). Far too many of these civilians were unable to secure 
State workers' compensation benefits, due, in part, to the unusual 
nature of their occupational exposures.
    In contrast, chronic silicosis comes from exposure to silica (a 
non-radioactive substance) in the course of digging nine shafts, in 
these cases, for underground nuclear testing. But there was nothing 
``uniquely-related'' about these activities and--more importantly--
unlike the other diseases EEOICA covers, impaired victims of silica 
exposure have been able to secure traditional workers' compensation. 
Nevertheless, the Administration acceded to the inclusion of chronic 
silicosis.
    But section 3151 would take the inclusion of this condition even 
further from the policies underlying the EEOICA: Our Government's 
intention to provide a type of Federal workers' compensation program 
for those who were injured by hazards uniquely connected to the 
development of nuclear weapons for national defense. The current EEOICA 
standard for what may constitute chronic silicosis may not have a 
connection to whether a claimant was impaired. Indeed, it is akin to 
measurements of asbestos exposure (asbestos fibers and silica fibers 
enter the body in very similar ways), in which workers may have 
evidence of asbestos exposure, but no actual impairment. Section 
3151(c) would compound these problems by lowering the standards for the 
required silica measurement. Thus, the proposed amendment would 
exacerbate a situation in which workers demonstrating the most minimal 
exposure measurable may secure payments of $150,000, although they have 
no impairment whatsoever. Indeed, part of the asbestos litigation 
problem is the presence of enormous numbers of lawsuits in which 
claimants secure recovery for similarly-unimpaired people who can 
demonstrate minimal presence of asbestos.
    We urge the deletion of this provision.
    Thank you for the opportunity to present our views. Please do not 
hesitate to call upon us if we may be of additional assistance. The 
Office of Management and Budget has advised us that from the 
perspective of the Administration's program, there is no objection to 
submission of this letter.
            Sincerely,
                                          Daniel J. Bryant,
                                        Assistant Attorney General.
              General Counsel of the Department of Defense,
                                  Washington, DC, October 26, 2001.
Hon. Bob Stump,
Chairman, Committee on Armed Forces,
House of Representatives, Washington, DC.
    Dear Mr. Chairman: This is in response to your request for the 
views of the Department of Defense on H.R. 2006, 107th Congress, a bill 
``To amend titles 10 and 18, United States Code, and the Revised 
Statutes to remove the uncertainty regarding the authority of the 
Department of Defense to permit buildings located on military 
installations and reserve component facilities to be used as polling 
places in Federal, State, and local elections for public office.''
    We note that the House of Representatives incorporated the 
substantive provisions of H.R. 2006 as section 2813 of H.R. 2586, the 
National Defense Authorization Act for Fiscal Year 2002. The Department 
would support section 2813 if it is modified as discussed herein.
    The rights of American citizens to participate in the democratic 
process are among the important freedoms members of our armed forces 
defend. Therefore, the Department believes every effort should be made 
to ensure that they have the ability to vote, without obstacles. At the 
same time, the Department is concerned that allowing its facilities to 
be used as polling sites may result in conduct that could inadvertently 
violate criminal statutes discussed below.
    Section 592 of title 18, United States Code, provides that: 
``[w]hoever, being an officer of the Army or Navy, or other person in 
the civil, military or naval service of the United States, orders, 
brings, keeps, or has under his authority or control any troops or 
armed men at any place where a general or special election is held, 
unless such force being necessary to repel armed enemies of the United 
States, shall be fined under this title or imprisoned not more than 
five years or both. * * *''
    Similarly, section 593 of the same title subjects members of the 
Armed Forces to criminal penalties if they ``impose or attempt to 
impose any regulations for conducting any general or special election 
in a State, different from those prescribed by law,'' or ``interfere in 
any manner with an election officer's discharge of his duties.''
    The proposed conforming amendments to sections 592 and 593 of title 
18 do not fully address the potential applicability of these criminal 
provisions to actions that an installation commander might be required 
to take in order to protect people or property from harm while a 
building on a military installation is being used as a polling place. 
We suggest that both provisions include an exception for the actions of 
military personnel at any place where a general or special election is 
held on a military installation in accordance with sections 2670(b), 
18235, or 18236 of title 10.
    Furthermore, we believe it is important that the availability of 
polling places on military installations be limited to use by 
individuals who reside on that military installation, or other military 
personnel. It is imperative that the commander of a military 
installation have complete control over the facilities within his or 
her authority. The Department is concerned that if a commander closes 
or restricts access to a military installation in order to respond to a 
threat soon before, or on the date of, an election, he might be seen as 
preventing citizens from being able to vote. Even if his response to a 
threat is only to require all those wishing to enter the facility to 
present valid identification and subject their vehicles and packages to 
search, he could be perceived as intimidating private citizens to such 
an extent that they would not enter the installation to vote.
    Additionally, under the proposed legislation, once an installation 
is made available as a polling place, the Secretary concerned would be 
required to make it available for subsequent elections unless the 
Secretary provided notice to the Congress. The provisions should be 
clear in its application that it refers only to those installations 
made available as polling places in accordance with this legislation. 
Further, we suggest that the notice be sent to ``the State or local 
officials responsible for providing for polling places,'' rather than 
to the ``Congress.'' Certainly, those responsible for providing polling 
places need to have timely notification that facilities that they might 
be relying upon will not be available. If the State or local officials 
believe that the Secretary's action is unwarranted, they certainly 
would inform interested members of Congress.
    National Guard armories or other Guard facilities are subject to 
the control of state Governors through their Adjutants General, not the 
Department of Defense, and our concerns noted above do not apply to 
such facilities. Decisions on the use of such facilities are the 
responsibility of the concerned states.
    The Office of Management and Budget advises that, from the 
standpoint of the Administration program, there is no objection to the 
presentation of these views for the consideration of Congress.
            Sincerely,
                                              William J. Haynes II.

    Mr. Davis. To Chairman Stump expressing concerns about that 
language, which I think we would further want to address before 
we adopt----
    Mr. Reynolds. Who was the letter from?
    Mr. Davis. This is a letter from the General Counsel at the 
Department of Defense, William Haynes, and it may be that what 
Mr. Kirk has done is to address the concerns that have been 
expressed in both these letters, but I don't think either you 
or I nor members of the committee know this, and I think it 
would be useful if we knew it before we acted today on this 
very important issue.
    Mr. Reynolds. Would the gentleman yield?
    Mr. Davis. Absolutely.
    Mr. Reynolds. As I indicated in my remarks, I had brought 
the amendment to the floor, there has been consultation. This 
language has been approved by the Department of Defense and the 
White House prior to me bringing it before this body for 
consideration. And I also understand that our language is 
different from the Armed Services language, based on the fact 
that this language does reflect the discussions with DOD.
    The Chairman. If the gentleman would yield, also I wanted 
to make a note of this. I was a conferee for a small portion, 
which was on the military voting. I had originally asked that 
just everything be removed from the conference. I don't know 
where this specific part lies. I know one from the House, one 
in the Senate is probably being discussed. Then it became a 
little bit confusing, because after that we did talk to 
individual members, Mr. Skelton, Mr. Hoyer, took out bits and 
pieces. My theory was we were looking at military voting in 
this bill that would be good if we would pursue it here, 
although they had bits and pieces that did tie in.
    So I think that bill--I am not speaking directly to this, 
but just the process. That part of military voting is going to 
be in DOD and part is going to be in here and that sometime we 
have got to make them mesh together and work. I think it was a 
little tough process----
    Mr. Fattah. If the chairman would yield for one second--the 
people who are dealing with these issues in the Armed Services 
Committee and in Defense--is there something here that I am 
missing about why they would not be dealing with this language 
and why we would be dealing with it, because it is possible we 
might not have all the information about such a subject, since 
I at least don't serve on any such a committee that would have 
great knowledge about why this could or could not be such a 
wonderful idea for DOD. So for it to be sprung and we put it in 
and then we go to the floor and then you have got Members, one 
of the committees of jurisdiction who then raises objections to 
it, it would seem to me it might be better to do it in a 
reverse way, Mr. Chairman.
    Mr. Reynolds. Would the gentleman yield? Just a reminder on 
the amendment. This amendment allows but does not require 
military base commanders to permit the voting sites on the 
military installation, and as I said, it was only for the 
residents of the military installation, but it is still on the 
front line. The military commanders will make that decision on 
the base, as this language is written, not that it is a mandate 
on those commanders.
    Mr. Fattah. You mean that in certain elections the 
commander could allow a polling place and in certain elections 
they would disallow it?
    Mr. Reynolds. Well, I would hope that not be the case, but 
it gives the discretion of having polling places to the 
military commander of that base, not that the Congress mandates 
that there will be those polling places.
    Mr. Fattah. I will just ask one more question. I am going 
to move on from here. Has this matter been the subject of the 
Armed Services Committee itself, which would be the 
jurisdiction in terms of military bases and what is allowable 
and not allowable?
    The Chairman. We did have communication with the majority-
minority staff of the Armed Services Committee on this.
    Mr. Fattah. And they felt that this was a wonderful thing 
for us to do, Mr. Chairman, or they paused and gave us reason 
to pause?
    Mr. Hoyer. Mr. Chairman, if I might interject.
    Mr. Chairman. I will yield to you in a second. We were 
addressing it here, because it was not clear if it would be in 
the DOD bill.
    Mr. Fattah. Well, all I am asking is did the chairman and 
the ranking member staff on Armed Services want us to address 
this?
    The Chairman. Some do, some don't. But it was a staff-to-
staff thing.
    Mr. Hoyer. Mr. Chairman.
    Mr. Davis. Mr. Chairman, I recognize you are not going to 
spend much more time on this, but I would like to make one 
further point. The letter which I have now read to Congressman 
Skelton specifically suggests a concern about two Federal 
criminal statutes interfering with the ability of the base 
commander to control security on the base, and perhaps somebody 
can point it out to me, but I don't see where those two 
specific points have been addressed in the Kirk amendment.
    The reason this is such a good bill, Mr. Chairman, is we 
have developed this with a very strong factual predicate. We 
have had a lot of testimony. We have had absolutely no 
testimony on this issue, and this document which is now a part 
of the record, once you so choose, addresses two specific 
concerns. If the Kirk bill addresses those concerns, Mr. 
Reynolds, I think your amendment is in order and perhaps an 
improvement over what is in the conference committee. But if it 
doesn't, I think at best we are acting prematurely here, Mr. 
Chairman.
    The Chairman. I would note to you that on a couple of 
issues, one, the gentleman from New York had stated, you know, 
about the previous vote on this bill in support of it, we also 
have had this issue around for about a week or so between the 
majority and minority of the committee here. So I do want to 
let you know, it had been out there and discussed, this 
specific amendment and issue.
    Mr. Hoyer. Mr. Chairman, speaking to Mr. Reynolds' 
amendment, I will offer two amendments. We have discussed these 
three amendments among ourselves, obviously could not agree on 
the conclusion of these three amendments and therefore they are 
not in the base bill. My concern with the circumstance 
amendment--and, by the way, I talked to Ike Skelton last night. 
I had dinner with Ike last night. He indicates that the 
conference has not yet disposed of this issue. It is still you 
should have active consideration in the conference. However, we 
do deal with a large number of military voting issues in this 
bill, obviously overseas. My problem, however, with the Kirk 
amendment is a fundamental problem, and my concern that 
historically one of the great strengths of America has been 
that we have separated our military from our politics.
    Mr. Hoyer. We don't have our military guarding polling 
places. We don't have any special sort of operations for 
military voters. Many nations do that. Many nations, the 
military plays a very dominant role in the election process. I 
am concerned that this, in effect, violates that principle of 
the separation of the political sphere of our country and the 
military sphere of our country.
    Having said that, I am not going to live or die on whether 
this amendment is adopted in terms of my support of this bill, 
obviously. And I think the amendment, I presume is going to be 
adopted. But it is a more basic concern. I think the Defense 
Department is ambivalent at best. I think they will be more 
pleased, obviously, with it being a discretionary act on behalf 
of the base commander.
    And the other problem I have there--Mr. Skelton and I were 
discussing this and I have not read the CRS report--is that we 
have a very large military facility in Prince George's County 
down the road, which all of you know about and every one of you 
has visited--Andrews Air Force Base. I have not asked and 
therefore don't know, but my--Ike Skelton and I were both sort 
of speculating. I will bet you there probably aren't 25 people 
on that base who are Maryland voters, but living on base. There 
are a lot of people who are working in Andrews, military and 
nonmilitary, who live off base and who may well be registered 
in Maryland because they have chosen Maryland not only as their 
domicile, but as their residence. They are legal residents of 
the State, and so they vote here.
    But I would presume that the overwhelming number of people 
who live on military bases are residents of another State. 
Therefore, the complexity of trying to offer it to each one of 
them, the opportunity to vote, would be overwhelming. So, 
therefore, I presume the Kirk amendment is limited to a polling 
place for the candidates in that particular area wherein the 
base is located. Am I correct in that promise?
    Mr. Reynolds. I believe so.
    Mr. Hoyer. Tom, you see my problem? Because obviously a 
base commander has got maybe 100 different--1,000 different 
jurisdictions represented on base by his residents. He clearly 
cannot provide, nor would he provide, for polling places for 
every one of those--Montana, California, Florida, et cetera.
    So as a practical matter, knowing philosophically I do 
think I have a concern, but also as a practical matter, I am 
not sure how you implement it unless you limit it to the 
jurisdiction in which the base is located. And if you do, I 
can't believe there would be very many people that would be 
affected. But again----
    Mr. Reynolds. Would the gentleman yield?
    Mr. Hoyer. Sure.
    Mr. Reynolds. As I listened to our generation and Vietnam 
veterans talk about some of the problems of voting when they 
were in Vietnam that are similar to what we are now resolving 
today, or what we learned firsthand from this last election, we 
have heard those challenges. And I certainly have heard the 
opponents talk about not putting politics and the military in 
any way together. But I don't see the election and a vote as 
politics. I understand politics. I have been elected since I 
was 23, and I know about where the line ends on Election day 
when you go in to pull a lever. In my State, you have to be 500 
feet away from the poll to even talk politics or campaign. So I 
think they are kept separate. And I think the right to vote is 
just what this is, giving military voters the right to vote.
    I was thinking, while I am not an expert of Andrews Air 
Force Base----
    Mr. Hoyer. I want to reclaim my time. I hope nothing that I 
said implied in any way that I don't think that every member of 
the military not only has the right to vote but ought to be 
facilitated in doing so.
    Mr. Reynolds. What I heard was that some opponents who--
felt that politics and the military should be kept separate. I 
agree with that. To make it very clear on the record, that 
Election Day, walking in to cast a vote is not politics. It is 
entering a right to vote and having that privilege that we have 
as Americans to do.
    And I am not expert on Andrews Air Force Base, but I know 
it is big. I know it is bigger than the village that I come 
from. And I know when I vote, I go up the street to my church, 
and there are three precincts there. So trying to envision some 
of our large military bases, particularly coming from the CRS 
study that had 20 jurisdictions with polling places that would 
be affected polling places--some which have been used for 15 
years--if it is off base, and Andrews military personnel that 
are able to meet the viewpoint of being able to vote, have a 
significant travel off base.
    Mr. Hoyer. Tom, I think you missed my point. I don't think 
that there are more than probably--I don't know the number--
take a guess, high number of 50, who live on base, who are 
Maryland residents and therefore can vote at a polling place 2 
miles, 5 miles, 50 miles away from Andrews Air Force. My 
presumption is that most of the people who live on base--there 
are people that live off base, uniformed and civilians, who are 
in fact residents of Maryland and live in my district or Al 
Wynn's or other districts. But the people who live on base 
largely are voting absentee because their residence is in a 
State other than that in which they are living on Andrews Air 
Force Base. That was my point. Not that I wanted them to travel 
to long places. I don't think they should.
    Let me make another point that politics--all of us have 
been in this business for some period of time. For instance, a 
complication. If you had a precinct on base that had a 
substantial number of voters which would justify its 
existence--I understand what you are saying about 500 feet--but 
at all my polling places throughout my district, I have a 
``Vote Hoyer for Congress'' sign. That is my right. And some 
people, tragically, have the right to put up signs that say 
vote against Hoyer. They say vote for X, Y or Z, but that is 
their right. Would we allow that on a base that had a precinct 
or polling place so that we can notify them that we want them 
to vote for either Ney or for Hoyer?
    The Chairman. I assume you could see billboards on the way.
    Mr. Fattah. If the gentleman would just yield for a brief 
moment. My brother was in the Air Force and stationed in Texas. 
Under this amendment would there be a polling place at the base 
where he could walk in and vote for his brother running for 
Congress in Pennsylvania, or would he have to be a legal 
resident of Texas and vote in the elections in Texas?
    The Chairman. To answer the gentleman's question, you would 
have to be a legal resident--I hope the day technology comes 
where you can vote.
    Mr. Fattah. I want to be clear about the legislative 
intent. This would be limited to having those people who are 
legal residents of the districts in which these bases where in 
existence to vote, and not for anyone who happened to be on the 
base, assigned or otherwise?
    The Chairman. That would be correct, unless, of course, a 
person changed their registration for some reason.
    Mr. Fattah. Absent that, it is only for those people. I 
think that it is a minor consequence and we should move on.
    Mr. Reynolds. Just in conclusion of me offering the 
amendment, basically in the spirit of this, bases that had 
polling sites that have been used for the last 15 years 
obviously are a value to the voters who use them.
    One of the things I have from the Minnesota Secretary of 
State--because I don't know what the Andrews Air Force voting 
block is, as my colleague, Mr. Hoyer, has presented-- but the 
Secretary of State of Minnesota, she writes to then her Senator 
that for several decades local jurisdictions have been using 
military bases and reserve facilities as polling places. As a 
result many voters, including military personnel, will be 
inconvenienced at best, and deterred from voting at worst, due 
to the loss of these accessible traditionally polling places, 
urged the Secretary, so that the longstanding use of military 
facilities as sites for nonpartisan Election Day activity can 
continue, and signed by the Secretary of State of Minnesota in 
March, 2000.
    The Chairman. With that, the question is on the amendment.
    Those in favor of the amendment will say aye.
    Those opposed will say nay.
    In the opinion of the Chair, the ayes have it and the 
amendment is approved.
    Are there any further amendments? Mr. Hoyer, do you have an 
amendment?
    Mr. Hoyer. I have two amendments that I am going to offer. 
I think--and this is, as all of you know, because you have 
heard about it and you are going to hear more about it--as all 
of you know, I sponsored the Americans with Disabilities Act. I 
like to think that I am very sensitive to the issues regarding 
access to public accommodations. In my opinion, there is no 
more important public accommodation in a Nation than a polling 
place. It is central to our democracy. And therefore, the 
Americans with Disabilities Act, in my opinion--and, frankly, 
the district court in New York has held this as well--has not 
been appealed because the jurisdiction said, yeah, you are 
right. But I think the ADA applies fully to the election 
process. We had discussions. I think the bill provides for that 
as well.
    But I offer two amendments which are efforts to clarify and 
set forth with some degree of particularity. Obviously, we 
could not agree on this or I wouldn't be offering the amendment 
to be included in the bill. I am not sure it will be adopted, 
because I understand the concerns about being particular as it 
relates to implementation and the costs of implementation. I 
understand that.
    But I offer these amendments. And, Mr. Chairman, I will 
offer the en bloc amendment first, which amends section 
102(a)(2) of the bill regarding eligibility of States and what 
they need to assure as it relates to getting punch card money.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9916A.005
    
    [GRAPHIC] [TIFF OMITTED] T9916A.006
    
    [GRAPHIC] [TIFF OMITTED] T9916A.007
    
    [GRAPHIC] [TIFF OMITTED] T9916A.008
    
    Mr. Hoyer. This amendment will require with a degree of 
specificity that is not now in the bill, but which I think is 
incorporated in the bill, assurances that in replacing those 
machines--and you can read it yourself--but that each 
individual who is blind, visually impaired, or has a sensory or 
motor disability to vote in a private, independent, and 
anonymous manner. We had testimony here from the blind in 
particular. Technology does exist. And, of course, it is 
audiotechnology which allows the voter to be, in effect, walked 
through audibly, as opposed to visually, the voting process. 
Obviously, that gives the person who is blind the opportunity 
to do their voting as all the rest of us do our voting alone in 
private, secret, protecting the secrecy of that ballot.
    This language is designed to set forth with, again, 
particularity that we are covering that and assuring that that 
in fact happens.
    It also amends section 112(a)(2) relating to eligibility 
for funding to enhance performance of punch card voting 
systems, so that we will enhance the performance of those 
systems to ensure that voting systems in operation allow each 
individual who is blind, visually impaired, or has a sensory or 
motor disability; again, simply particularly referencing the 
disabilities that we have already referred to in a number of 
places under the rubric of the Americans with Disabilities Act 
generally and the Voting Accessibility for the Elderly and 
Handicapped Act as well.
    Mr. Chairman, I am not going to read all of the amendment. 
It is 4 pages in length, and you can see what it says. The 
other sections that deal with money going to jurisdictions is 
also affected so that when we have the election fund payment, 
which is the 2.25 billion, in assuring access to voting in each 
precinct in a private, independent, and anonymous manner for 
all voters--again, blind, visually impaired; simply repeats it 
in the various sections.
    The purpose for offering the amendment--I would hope it 
would be adopted, but I understand there are concerns about the 
particularity as we move through this. But the purpose of 
offering the amendment is to make it very clear what I think we 
ought to do for those who are--who have disabilities and 
therefore need to have a reasonable accommodation. Reasonable 
accommodation is the language that we used in the Americans 
with Disabilities Act. We also make it clear that reasonable 
accommodations are in the context of undue burdens.
    But it seems to me, Mr. Chairman, and you and I have 
discussed this and I appreciate your sensitivity to this, and I 
am sorry we couldn't get it included in the language--but that 
jurisdictions throughout this country ought to make every 
effort to ensure full accessibility by citizens with 
disabilities to this most basic American right, the right to 
vote. Thank you, Mr. Chairman.
    The Chairman. Thank you. We do have a little bit--before we 
go on to discussion with this--we have a little bit of 
confusion on two different sheets we have. So the clerk will 
report the amendment.
    The Clerk. En bloc amendments to H.R. 3295 offered by Mr. 
Hoyer.
    Mr. Hoyer. I said I had two amendments. And what I have 
done is, I have handed you the en bloc, which included the 
second amendment. I want to talk about the second amendment 
separately, so if I could just do the first one.
    The Chairman. The clerk will report which amendment?
    Mr. Hoyer. Do we delete page 4?
    The Clerk. En bloc amendment to H.R. 3295 offered by Mr. 
Hoyer.
    Mr. Hoyer. Mr. Chairman, all it does is delete page 4. So, 
just the first 3 pages.
    The Chairman. Let me make a comment and then we will move 
on to anybody else who would like to make a comment. I know 
that this bill is an important breakthrough for the voting 
rights of persons with disabilities. All new voting systems 
must provide a practical and effective means for voters with 
physical disabilities to cast a secret ballot. This language is 
taken directly from the Ford-Carter Commission.
    All States receiving Federal funds under this bill must 
certify that in each precinct or polling place, there is at 
least one voting system available which is fully accessible to 
individuals with physical disabilities. And it also states that 
use of Federal funds to purchase new machines must ensure that 
at least one voting machine at each polling place in the State 
will be fully accessible to individuals with physical 
disabilities. The language of this bill goes actually beyond 
the bipartisan compromise reached by the Ford-Carter 
Commission, demonstrating broad support. So this bill goes a 
step further.
    Now, the proposed additional amendment, what it would 
require would be new voting machines for over 200,000 precincts 
that, due to available technology, still may not solve all the 
problems, and modifying and relocating tens of thousands of 
polling sites, often spending public money to improve private 
facilities.
    This, I think, would be a strain to go further with it and 
would hurt the ability of local governments to actually respond 
to a lot of critical needs. I think the bill took a big step.
    Now I want to say, having said that, though, I fully 
understand where the author, or the Ranking Member, is coming 
from. In the State legislature, I worked with a lot of issues 
with disabilities. I believe the bill takes a huge step above 
Ford-Carter, but I understand, again, where the gentleman is 
coming from to have this to the point where he would like to 
get it.
    I can't support the amendment because of the fact that I 
think that what we have is a good step that goes above Ford-
Carter, but to go this direction, in fact, although the intent 
is sincere and it is decent, would in fact economically not be 
able to carry out the bill. The bill--no matter what happens 
with this amendment, this bill takes probably one of the first 
major steps in dealing with the issue of access in years on the 
machines.
    Mr. Hoyer. Mr. Chairman, I looked at this again. There 
really is no reason to separate out page 4. Let's include that 
page. We will just do it in one vote. And the reason I say that 
is because it deals with a different section, but again it 
deals with the blind, the visually impaired and those with 
motor disabilities. So it is the same issue, just in a 
different section of the bill.
    Mr. Fattah. Will the gentleman yield? We just went through 
this thing about people living on military bases. Say you were 
in the military and went off to war and you lost both of your 
legs, and you came back and you are discharged and you are 
living in Philadelphia. Your amendment is not part of this 
bill. The city of Philadelphia could have a polling place that 
would require you to go down the steps or up the steps or some 
other way that would make it impossible for you to go exercise 
your right to vote?
    Mr. Hoyer. No, sir. Not in my opinion.
    Mr. Fattah. Absent your amendment?
    Mr. Hoyer. My answer is no, sir. I am not sure whether this 
amendment is going to pass, and I want to make my position very 
clear for the record. I believe the Americans with Disabilities 
Act applies to every voting precinct, every voting 
jurisdiction, every voting system in America. That is my 
premise. Understand, whether we pass this bill or not--whether 
we never touch this--I may or may not be wrong. There has been 
no Supreme Court case or circuit court case on that. That is my 
premise. That is why I want to make it very clear for the 
record.
    I believe right today, Philadelphia has to make sure that 
that veteran who lost two legs can come to his voting place, 
have a fully accessible voting--physical place to come into so 
that there is a ramp or an elevator, so that he can get to the 
polling place and can use the technology that is being offered, 
so he can vote and he can vote in private.
    Mr. Fattah. Well, you do understand, if you believe that to 
be the case today, that there is probably no place that I know 
about that has their polling places completely accessible to 
the disabled. So if your view is that the law presently 
requires it and that we have massive noncompliance----
    Mr. Reynolds. Will the gentleman yield? I also concur with 
Mr. Hoyer, at least from a New York perspective. And I have 
always felt that it was by Federal statute that the compliance 
of both the spirit of the local election jurisdictions--and I 
have seen inadequate sites, and as they are brought to the 
attention of the election authorities, which are usually the 
towns that contract with fire departments, to churches, to 
schools, and other aspects, they are brought under compliance.
    And I, from my days of being a local official as well as a 
State legislator, believe it has been under the same pretext 
that Mr. Hoyer has outlined here. Are there violations? Sure 
there are. It is up to who administers local election law to 
follow through on making sure there is compliance.
    The Chairman. One point I would like to make on this issue. 
There are two issues here in my opinion. One is what this 
committee looks at dealing with access and availability to the 
machines and voting. This reaches into another area, though, of 
access to buildings, which I am not sure we have the ability in 
this committee to look at that. Should it be looked at? Sure.
    One other fear I have, too, in the 14 counties I represent, 
we have--and not just me, but we have one bus that goes between 
three cities. And we have probably three taxicabs in the entire 
14-county area. If certain things weren't carefully looked at 
and it was instituted, we probably would have to actually shut 
down most of the sites and then take persons who have some form 
of disability andtry to find a way to have them vote somewhere, 
and that may be indirectly affected.
    Mr. Fattah. Mr. Chairman, if you would just yield for one 
second. I know the gentleman is a much more capable scientist 
than I am. Some of this is not art. A lot of it is science. 
Part of the problem with a polling location, that if you sit in 
the precinct you get a larger turnout. If you put it on the 
edge of the precinct, the further people are from it, the least 
likely they are to vote. If you have circumstances in which 
people have to go down steps or up steps, you are more likely 
to break the machinery delivering it to the location and 
therefore have mechanical breakdowns at the location. If you 
make it inaccessible to people who are disabled, you are going 
to dissuade many of them from casting their vote. And it is not 
a guess about any of that, it is just factual.
    And so to the degree that you want to separate the building 
in the location of a precinct in which people cast their vote 
in a Federal election from the casting of the vote, it is a--
you can't be intellectually coherent about it and separate 
those two things. We have to have some burden on those who are 
selecting these locations to do it in such a way where they 
enhance the likelihood that people will vote versus dissuading 
people from voting.
    Mr. Hoyer. Let me say to the gentleman, I think the 
gentleman from New York and I agree. First of all, my response 
is--and I want to make it very clear, I believe that is the law 
today. I agree. Everybody doesn't comply, and they are working 
towards it. There are some costs involved. We all contemplated 
that in the Americans with Disabilities Act. We gave the 
transportation people a number of years to comply because of 
the costs involved and the technology application. But I 
believe the law currently requires that. B, this law will 
reaffirm that. This amendment is simply to make more specific--
and I understand the Chairman's concerns about that, but I want 
to offer the amendment because that is what I think is covered.
    The Chairman. Le me just say one thing and see if someone 
else has something to say, and I will rest my case on this. I 
don't question the intent of this. And I understand exactly 
where Mr. Fattah is coming from on this.
    I want to figure out an idea here that if, in fact, we 
would do this at this point in time, you do have situations 
where billions and billions of dollars come into play because 
right now you have polling places at a private shopping mall. 
And all of a sudden, do we take money to subsidize the private 
shopping mall to put a ramp up? Maybe we should say it 
shouldn't be done at the private shopping mall.
    If this would kick in, I am not sure, as it would be 
instituted, if we could even get to an election process. So I 
am not totally separating out--I understand what you are saying 
about access. But I only use the district that I come from as 
an example, and I want everybody to vote. And in a rural area, 
you can bet if somebody can't get access, our office is going 
to hear about it and they are going to do something about it.
    When you look at this in a wide brush that it would paint, 
it would be questionable, and maybe we shouldn't have private 
places as polling places. But you get into where election 
officials all of a sudden build a ramp versus getting a 
machine. I think it is an issue that needs looking at. It makes 
me have a hesitation of supporting this at this point in time.
    Okay. Any further discussion on the amendment? The question 
is on the amendment.
    Those in favor of the amendment will say aye.
    Those opposed will say no.
    In the opinion of the Chair, the noes have it. Roll call 
has been requested. The clerk will call the roll.
    The Clerk. Mr. Ehlers.
    [No response.]
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Linder.
    Mr. Linder. No.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. No.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. No.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. Aye.
    The Clerk. Mr. Fattah.
    Mr. Fattah. Aye.
    The Clerk. Mr. Davis.
    Mr. Davis. Aye.
    The Clerk. Chairman Ney.
    The Chairman. No.
    4 to 3. The amendment fails. The question is now on the 
bill, as amended.
    Those in favor will say aye.
    Those opposed will say nay.
    In the opinion of the Chair, the ayes have it. The clerk 
will call the roll.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. Aye.
    The Clerk. Mr. Fattah.
    Mr. Fattah. Aye.
    The Clerk. Mr. Davis.
    Mr. Davis. Aye.
    The Clerk. Chairman Ney.
    The Chairman. Aye.
    8 to zero. The bill is adopted, as amended.
    The Chair recognizes Mr. Linder for the purpose of offering 
a motion.
    Mr. Linder. Mr. Chairman, I move that H.R. 3295, as 
amended, be reported favorably to the House.
    The Chairman. The question is on the motion.
    Those in favor say aye.
    Those opposed say nay.
    The clerk will call the roll.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. Aye.
    The Clerk. Mr. Fattah.
    Mr. Fattah. Aye.
    The Clerk. Mr. Davis.
    Mr. Davis. Aye.
    The Clerk. Chairman Ney.
    The Chairman. Aye.
    8 to zero, the motion is agreed to and H.R. 3295, as 
amended, is reported favorably to the House.
    Mr. Hoyer. Mr. Chairman, I announce that pursuant to the 
provisions of clause 21 of rule 11, to seek not less than the 2 
additional calendar days provided by that rule to prepare 
additional views to be filed with the committee report.
    The Chairman. Without objection. Motion for submitting 
material to the record. I ask unanimous consent that the 
Members have several legislative days for statements and 
materials to be entered at the appropriate place in the record. 
Without objection, the material will be so entered.
    Technical and conforming changes. I ask unanimous consent 
that the staff be authorized to make technical and conforming 
changes on all matters considered by the committee at today's 
meeting. Without objection, so ordered.
    Having completed our business for today, the committee is 
hereby adjourned. Thank you.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]

</pre></body></html>
